No. _____

IN THE

SUPREME COURT OF THE UNITED STATES
JENNIFER MAE LEVIN,
Petitioner,
v.
STATE OF FLORIDA,
Respondent.
On Petition for Writ of Certiorari
to the Florida Fifth District Court of Appeal
PETITION FOR WRIT OF CERTIORARI

MICHAEL UFFERMAN
Michael Ufferman Law Firm, P.A.
2022-1 Raymond Diehl Road
Tallahassee, Florida 32308
(850) 386-2345/fax (850) 224-2340
FL Bar No. 114227
Email: ufferman@uffermanlaw.com
COUNSEL FOR THE PETITIONER

i
A. QUESTIONS PRESENTED FOR REVIEW
1.

Whether – in a case involving the charge

of DUI manslaughter – the prosecution can meets its
burden of proving “cause of death” through the
testimony of a “hospitalist” who did not treat the
alleged victim and who merely reviewed the alleged
victim’s medical records?
2.

Whether a criminal defendant’s Sixth

Amendment right of confrontation is violated when a
“hospitalist” – who is not a medical examiner and who
did not treat the alleged victim – testifies as to the
alleged victim’s cause of death (i.e., can such an expert
simply review the alleged victim’s medical record and
give an opinion based on the review of the medical
record)?

ii
B. PARTIES INVOLVED
The parties involved are identified in the style of
the case.

iii
C. TABLE OF CONTENTS AND TABLE OF
CITED AUTHORITIES
1.

TABLE OF CONTENTS

A.

QUESTIONS PRESENTED FOR REVIEW. . i

B.

PARTIES INVOLVED .. . . . . . . . . . . . . . . . . . ii

C.

TABLE OF CONTENTS AND TABLE OF
AUTHORITIES. . . . . . . . . . . . . . . . . . . . . . . iii
1.

Table of Contents.. . . . . . . . . . . . . . . . iii

2.

Table of Cited Authorities. . . . . . . . . . iv

D.

CITATION TO OPINION BELOW . . . . . . . . 1

E.

BASIS FOR JURISDICTION. . . . . . . . . . . . . 1

F.

CONSTITUTIONAL PROVISIONS
INVOLVED.. . . . . . . . . . . . . . . . . . . . . . . . . . . 2

G.

STATEMENT OF THE CASE . . . . . . . . . . . . 3

H.

REASON FOR GRANTING THE WRIT. . . . 14
The questions presented are important. . . . 14

I.

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . 33

iv
2.

TABLE OF CITED AUTHORITIES

a.

Cases

Banmah v. State,
87 So. 3d 101 (Fla. 3d DCA 2012). . . . . . . . . 30
Bullcoming v. New Mexico,
564 U.S. 647 (2011). . . . . . . . . . . . . . 24, 30-32
Crawford v. Washington,
541 U.S. 36 (2004). . . . . . . . . . . . 24, 29-30, 32
In re Winship,
397 U.S. 358 (1970). . . . . . . . . . . . . . . . . . . . . 2
Jenkins v. State,
385 So. 2d 1356 (Fla. 1980). . . . . . . . . . . . . . . 2
Levin v. State,
284 So. 3d 1072 (Fla. 5th DCA 2019). . . . . . . 1
Melendez-Diaz v. Massachusetts,
557 U.S. 305 (2009). . . . . . . . . . . . . . 24, 30-32
Rosario v. State, 175 So. 3d 843
(Fla. 5th DCA 2015). . . . . . . . . . . . . . 26, 29-31

b.

Statutes

§ 406, Fla. Stat.. . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30-31

v
28 U.S.C. § 1257.. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

c.

Other

U.S. Const. amend. V. . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
U.S. Const. amend. VI. . . . . . . . . . . . . . . . . . . . . . passim
U.S. Const. amend. XIV. . . . . . . . . . . . . . . . . . . . . . . . . . 2

1
The Petitioner, JENNIFER MAE LEVIN,
requests the Court to issue a writ of certiorari to
review the opinion/judgment of the Florida Fifth
District Court of Appeal entered in this case on
November 26, 2019. (A-3-4). 1

D. CITATION TO OPINION BELOW
Levin v. State, 284 So. 3d 1072 (Fla. 5th DCA
2019).

E. BASIS FOR JURISDICTION
The jurisdiction of the Court is invoked pursuant
to 28 U.S.C. § 1257 to review the final judgment of the

References to the appendix to this petition will be
made by the designation “A” followed by the appropriate
page number.
1

2
Florida Fifth District Court of Appeal.2

F.
CONSTITUTIONAL
INVOLVED

PROVISIONS

The Due Process Clause of the Constitution
requires the prosecution to prove guilt beyond a
reasonable doubt. See U.S. Const. amends. V and XIV;
In re Winship, 397 U.S. 358, 361 (1970).
The Sixth Amendment to the Constitution
provides that “[i]n all criminal prosecutions, the
accused shall enjoy the right . . . to be confronted with
the witnesses against him.” U.S. Const. amend. VI.

Because the state appellate court did not issue a
written opinion, the Petitioner was not entitled to seek
review in the Florida Supreme Court. See Jenkins v. State,
385 So. 2d 1356, 1359 (Fla. 1980).
2

3
G. STATEMENT OF THE CASE
1.

Statement of the case.

The Petitioner was charged in Florida state
court with “driving under the influence” (hereinafter
“DUI”) manslaughter. The charge stemmed from a
vehicle accident that occurred on December 19, 2016,
and Octavie Lydia Morand died following the accident.
The case proceeded to a jury trial, and at the
conclusion of the trial, the jury found the Petitioner
guilty as charged.

The trial court sentenced the

Petitioner to fifteen years’ imprisonment. (A-15). The
Florida Fifth District Court of Appeal subsequently per
curiam affirmed the Petitioner’s conviction without
discussion. (A-3-4).
2.

Statement of the trial facts.

a.

The State’s Case in Chief.

Dante Palmer. Mr. Palmer testified that at

4
approximately 7:45 p.m. on December 19, 2016, he was
in his vehicle traveling south on I-95 and he swerved to
avoid a vehicle traveling in the wrong direction
towards him (i.e., the vehicle was traveling north in
the southbound lanes).

(T-108-109).3

Mr. Palmer

stated that shortly after he passed the vehicle that was
traveling in the wrong direction, he observed a black
vehicle crash into another vehicle.

(T-109).

Mr.

Palmer testified that after he observed the accident, he
pulled over, got out of his vehicle, and ran towards the
accident. (T-110). Mr. Palmer stated that he observed
the vehicle that had been traveling in the wrong
direction (a black Audi SUV), and he identified the
Petitioner as the driver of that vehicle. (T-112-115).

References to the trial transcripts will be made by
the designation “T” followed by the appropriate page
number.
3

5
Naomi Garvin. Ms. Garvin testified that on
the evening of December 19, 2016, she was traveling on
I-95 near Exit 329 and she observed an accident on the
highway. (T-132). Ms. Gavin stated that an Audi SUV
was involved in the accident, and she said that she
observed the Petitioner exit the Audi SUV. (T-132136). Ms. Gavin testified that the Petitioner appeared
“out of it” and she said that the Petitioner’s eyes were
“low and heavy.” (T-137).
James

Jackson.

Mr.

Jackson,

a

detective/corporal with the St. Johns County Sheriff’s
Office, testified that he responded to the accident on I95 on the evening of December 19, 2016. (T-158).
Corporal Jackson stated that when he arrived at the
scene, he came into contact with the Petitioner – who
was sitting in the driver’s seat of the SUV. (T-159160). Corporal Jackson testified that he later escorted

6
the Petitioner to his patrol vehicle, and he said that he
“noticed an odor of alcoholic beverage coming from
her.” (T-161-163).
Scott Miller. Mr. Miller stated that at the time
of trial, he was a deputy with the St. Johns County
Sheriff’s Office, and he said that prior to June of 2017,
he was employed by the Florida Highway Patrol. (T190). Deputy Miller testified that he responded to the
accident on I-95 on the evening of December 19, 2016.
(T-192). Deputy Miller stated that when he arrived at
the scene, he spoke to the emergency personnel who
were attending to Octavie Lydia Morand (the driver of
the red Toyota Avalon that was involved in the
accident) and he said that he was told that Ms.
Morand’s injuries were not “life-threatening.” (T-197).
Deputy Miller testified that he also came into contact
with the Petitioner at the scene, and he said that the

7
Petitioner’s “speech was severely slurred” and
therefore he conducted field sobriety exercises with her
(and he said that he videotaped the exercises and the
video was played for the jury during Deputy Miller’s
testimony). (T-198, 203-230). Deputy Miller stated
that he arrested the Petitioner based on her
performance on the field sobriety exercises. (T-201202).
Deputy Miller testified that he subsequently
transported the Petitioner to the jail and he said that
once they arrived at the jail (at approximately 11 p.m.),
he obtained two breath samples from her (using the
Intoxilyzer 8000 machine). (T-236-243). Deputy Miller
stated that the result of the first sample was .153 and
the result of the second sample was .148. (T-247).
Payal Patel. Dr. Patel, a medical doctor, stated
that she was working at the hospital on the evening of

8
December 19, 2016 – the same night that Octavie
Lydia Morand was admitted to the hospital. (T-322).
Dr. Patel testified that Ms. Morand was born in 1925
(i.e., she was ninety-one years old at the time of the
accident). (T-328). Dr. Patel stated that after Ms.
Morand arrived, her condition deteriorated to “critical”
and she was diagnosed with multiple rib fractures, a
punctured

lung,

hemorrhaging.

and

(T-323).

internal

abdominal

Dr. Patel testified that

following multiple surgeries, Ms. Morand died on
December 20, 2016, as a result of her injuries. (T-325).
Paul Beasley. Mr. Beasley, a deputy with the
St. Johns County Sheriff’s Office, testified that he is an
“agency inspector” – which means that he conducts
monthly inspections of the Intoxilyzer 8000 machines.
(T-366-368). Deputy Beasley stated that the particular
Intoxilyzer 8000 machine that was utilized in this case

9
was inspected (pursuant to a monthly inspection) prior
to the date that the machine was used to obtain the
breath samples from the Petitioner and Deputy
Beasley said that the machine was “working correctly”
during the inspection. (T-369-384).
Jake

Shanahan.

Mr.

Shanahan,

the

department inspector for the Alcohol Testing Program
with the Florida Department of Law Enforcement,
testified that he has inspected – on two occasions – the
particular Intoxilyzer 8000 machine that was utilized
to obtain the breath samples from the Petitioner, and
Mr. Shanahan stated that the machine passed the
inspections. (T-415-426).
Justin Rountree. Mr. Rountree, a trooper with
the Florida Highway Patrol, testified that he conducted
the accident reconstruction analysis for the December
19, 2016, accident. (T-455). Based on his analysis,

10
Trooper Rountree opined that the accident in this case
occurred because the Petitioner’s vehicle was traveling
in the wrong direction on I-95 – resulting in an impact
between the Petitioner’s vehicle and the vehicle driven
by Octavie Lydia Morand. (T-474-478).
Scott Miller (recalled). Deputy Miller stated
that on December 6, 2017, he and the prosecutor
traveled to the intersection of County Road 210 and I95 and he said that the two took pictures of that area
(and during Deputy Miller’s testimony, the State
displayed the pictures for the jury). (T-527-531).
At the conclusion of Deputy Miller’s testimony,
the State rested. (T-534).
b.

The Petitioner’s Case in Chief.

Laura Barfield. Ms. Barfield, a consultant in
the area of forensic toxicology and former program
manager for the Alcohol Testing Program of the

11
Florida Department of Law Enforcement, testified that
she reviewed the inspection records for the Intoxilyzer
8000 machine that was utilized to obtain the breath
samples from the Petitioner, and she said that the
records from 2013 to 2016 indicated that there were
problems with the machine (including the replacement
of the light source). (T-572-601). Ms. Barfield stated
that the inspection records also demonstrated that the
machine had numerous inspections in October of 2013,
which she said was unusual. (T-576-584).
At the conclusion of Ms. Barfield’s testimony, the
defense rested. (T-724).
c.

The State’s Rebuttal.

Paul Beasley (recalled). Mr. Beasley stated
that the Intoxilyzer 8000 machine that was utilized to
obtain the breath samples from the Petitioner was
used for training in October of 2013 (i.e., Mr. Beasley

12
testified that he “delivered the instrument to the school
for the class”). (T-731-732).
Patrick Murphy. Mr. Murphy, the department
inspector with the Florida Department of Law
Enforcement Alcohol Testing Program, testified that he
reviewed records pertaining to the Intoxilyzer 8000
that was utilized to obtain the breath samples from the
Petitioner, and he said that in 2015, the light source
was replaced as a preventative maintenance because
“[i]t was an older instrument, and probably time to
replace the light source.” (T-743-744).
At the conclusion of Mr. Murphy’s testimony, the
State rested. (T-782).
d.

The Petitioner’s Surrebuttal.

Laura Barfield (recalled). Ms. Barfield stated
that she disagreed with Patrick Murphy’s testimony
about the light source of the Intoxilyzer 8000 being

13
repaired because it was old, and she said that repair
record showed that the part was replaced because it
was “erratic.” (T-792).
At the conclusion of Ms. Barfield’s testimony, the
defense rested. (T-795).

14
H. REASON FOR GRANTING THE WRIT
The questions presented are important.
The questions presented in this case are as
follows:
1.
Whether – in a case
i nv ol v i ng t he charge of D U I
manslaughter – the prosecution can
meets its burden of proving “cause of
death” through the testimony of a
“hospitalist” who did not treat the alleged
victim and who merely reviewed the
alleged victim’s medical records?
2.
Whether
a
criminal
defendant’s Sixth Amendment right of
confrontation is violated when a
“hospitalist” – who is not a medical
examiner and who did not treat the
alleged victim – testifies as to the alleged
victim’s cause of death (i.e., can such an
expert simply review the alleged victim’s
medical record and give an opinion based
on the review of the medical record)?
The Petitioner requests the Court to grant her
certiorari petition and thereafter consider these
important questions.

As explained below, (1) the

15
State’s evidence failed to prove that Octavie Lydia
Morand died as a result of the accident in this case and
(2) the trial court erred by allowing Dr. Payal Patel to
give an opinion regarding Ms. Morand’s cause of death.
During the trial, the State presented the
testimony of Dr. Patel, a “hospitalist” who was working
at the hospital (Baptist South) the night Ms. Morand
was brought to the hospital following the accident in
this case. During Dr. Patel’s testimony, the prosecutor
asked Dr. Patel whether Ms. Morand died as a result
of the injuries that she suffered from the accident,
defense counsel objected, and the following occurred:
Q Was the cause of her death and
the injuries she suffered the result of that
crash?
A Yes.
MR. STONE [defense counsel]:
Objection, your Honor.
May we approach?

16
THE COURT: All right. Let me
see counsel at sidebar.
(The following proceedings were held at
the bench out of the hearing of the jury:)
THE COURT:
doing the cross?

I guess you’ll be

MR. STONE: I will.
THE COURT: Okay. All right.
We’re at sidebar outside the presence of
the jury.
Mr. Stone?
MR. STONE: Your Honor, I don’t
believe that the witness has the – the
State has presented a proper foundation
for the witness to deliver that expert
opinion.
THE COURT: She’s a medical
doctor, treating physician.
MR. STONE:
treating physician.

She wasn’t the

MR. BISHOP:
There
multiple treating physicians.

were

THE COURT:
Lay some
foundation exactly as to her type of

17
medical expertise and that she was one of
the many treating physicians. Once you
lay that foundation, I’ll overrule the
objection, if you can lay that foundation.
(A-26-28)

(emphasis

added).

The

prosecutor

subsequently elicited the following testimony from Dr.
Patel:
Q Were there many physicians
that treated her?
A Yes.
Q You, as a hospitalist, treated
her. Was there also a surgeon?
A Correct.
Q Was the cause of Ms. Morand’s
death and the injuries she suffered a
result of the motor vehicle crash that she
came to the emergency department for?
MR. STONE:
Honor. Foundation.

Objection, Your

THE COURT: Overruled.
A Yes.
(A-28-29).

On cross-examination, defense counsel

18
established that during the time that Ms. Morand was
in the hospital, Dr. Patel never came into contact with
Ms. Morand:
Q Okay. But from the moment
that she was brought into the hospital to
the moment you left, you never laid eyes
on her?
A No, I did not.
Q Okay. So you don’t know what
happened other than looking at the
chart?
A Right. And discussion with the
other physicians involved.
....
Q And then the next day when you
arrived, you indicated that – well, she
was going in for surgery again. Correct?
A Yes, sir.
Q And that – and so you were
basically – again, you did not actually lay
eyes on Ms. Morand?

19
A Correct.
(A-30-33).
After the State rested its case in chief, defense
counsel moved for a judgment of acquittal and made
the following argument (which was denied by the trial
court):
Your Honor, in terms of the
element of death in this case, which is a –
the element of a DUI manslaughter, the
State has the requirement to prove
beyond a reasonable doubt the cause of
death. And that is typically done by
calling a medical examiner who would –
who actually performed an autopsy. In
this case, that wasn’t done. In this case
the cause of death was testified to by Dr.
Patel. Now, Dr. Patel was obviously at
the scene – at the hospital when Ms.
Morand was admitted. And she testified,
essentially, that Ms. Morand was alert,
coherent, and had a normal heart rate,
and later on went into distress and there
was an operation performed. But that
during that entire time, although she was
at the hospital, she never saw Ms.
Morand.
She never treated her. She was
not part of the team of surgeons or

20
anyone in the room with her when she –
when the surgery was performed. She
then went home and the next day she
came back.
THE COURT:
The doctor, the
doctor went home, not Ms. Morand.
MR. STONE:
The doctor. I
apologize. Dr. Patel went home still
having spent the entire day or evening,
her entire shift, where Ms. Morand was
at the hospital and she was at the
hospital, but never saw her. Never went
into the room. Has no personal firsthand
knowledge of any treatment or anything
that – that any doctor or any nurse or
anybody else may have had with Ms.
Morand. So Dr. Patel went home. And
the next day came back for her shift and
when she got there, a – the – the doctor –
and I’m not recalling the doctor’s name.
I want to say Atkins.
THE COURT: Adkisson.
MR. STONE: Dr. Adkisson was
the doctor who actually performed the
surgeries. And then there was also a Dr.
Patou who was present. And there was
also Dr. Margerum, I believe. And they
all had something to do with the
treatment. They all had something to do
with the – with what happened at the

21
hospital. But Dr. Patel did not, she was
a hospitalist, as she testified to. And
ultimately, later on, after she had been
there for – and I think she had indicated
sometime in the afternoon when she
arrived, Ms. Morand was going in for
surgery number two or was already in for
surgery number two. And then after that
surgery, she was out again and in a
recovery room. And it was much later
that a Code Blue went out. And that was
the one and only time that Dr. Patel
actually laid eyes on Ms. Morand. And –
she was not part of the resuscitation
team. I think she indicated that she went
– she went there to see if she could assist
in any way. She didn’t really testify as to
anything that she actually did medically
for Ms. Morand or in the resuscitation
efforts. But she talked about the fact that
there was some discussion with the
family about – about not going in for a
third surgery and the decision was made
by Dr. Patou not to do that. The problem
here is –
THE COURT: That discussion
wasn’t with the family. The discussion
was amongst the doctors with regards to
the third surgery, was my recollection.
MR. STONE: Correct, correct. But
there was – I believe she testified that
there was some discussion with the

22
family. Somebody – somebody addressed
the family.
THE COURT: But not about the
third surgery, was my recollection.
MR. STONE: Correct. Correct. It
was about the discussion whether they
were – and then – the was on – was on
those matters.
However, Dr. Patel, that was the
one and only time she actually had been
in the room with Ms. Morand. I’m not
sure exactly what her role was, other
than – other than to just be there to
assist in case they needed another set of
hands. Importantly when she testified,
and the State put her on the stand, they
handed her the medical records that Ms.
– that Dr. Patel relied upon, and that’s
how she drew her opinions, that’s how
she drew her testimony from, was
essentially what other doctors what other
people had done. And so we run into the
difficulty of – of her ability to declare a
cause of death.
And I’m not saying that in her
position, because she signed a death
certificate if, in fact, she did, and that’s
not in evidence, but let’s – for purposes of
an argument, let’s say that she did sign a
death certificate and she did declare Ms.
Morand deceased at a particular time on
a particular date, that is something

23
probably within her capabilities as a
doctor at Baptist South. However, that is
not within her expertise, knowledge,
education, or anything that we heard
about with regard to declaring a cause of
death. And I know that this may seem –

THE COURT: What if somebody
showed up at the hospital with a gunshot
wound to their chest, it went right
through their heart, do you think that an
emergency room doctor or a hospitalist
can say that gunshots is what caused
their death? And you don't need the
medical examiner to say that.
MR. STONE: Possibility. But I
think that under the circumstances it’s
not a – it’s not a matter of what we think
we know, it’s a matter of what the State
actually can prove, and that is why,
typically, medical examiners are called as
the – as the – to establish causation. The
medical examiner doesn’t come into court
without the credentialing that is
required. A medical examiner obviously
has to have certain credentials, certain
education, certain experience and certain
knowledge in order to make – draw such
opinions. Because at the end of the day,
that’s what the testimony involves. It’s
an opinion as to a cause of death. It could
be disputed by experts. It can be agreed

24
to by experts, but it must be established
by legal – by legal authority to do so.
Legal authority to do so means that the
witness is qualified and has the
education, training, and experience, and
ability to make the call.
And, in fact, in some cases, this
would be – this would fly in the face of
the Sixth Amendment right to confront
witnesses that was established in
Crawford v. Washington, which is a
United States Supreme Court case at 541
U.S. 36 in 2004. Which basically said that
the right to confront witnesses applies to
t esti m oni a l hea rsay. Later in
Melendez-Diaz versus Massachusetts at
557 U.S. 305, which is a 2009 U.S.
Supreme Court case, that – ruled that
Crawford ruling was expanded to reports
of forensic analysis. And essentially, they
determined that forensic analysis reports
would, in fact, be testimonial hearsay.
And then later on in Bullcoming
versus New Mexico, which, in fact, was a
DUI case that made it all the way to the
Supreme Court, 131 Supreme Court 2705,
which is 2011. In that case, interestingly
enough, we have a very similar situation
here.
And that’s a United States
Supreme Court case where they reversed
the conviction based upon the fact that a
blood alcohol content that was
established through a toxicology analysis
and resulted in a lab report – and ended

25
up in a lab report. But that was brought
in to court to be done for purposes of
establishing someone’s blood alcohol
content.
THE COURT:
But doesn’t the
Florida Rules of Evidence, as well as the
Federal Rules of Evidence allow experts
to come in and give their opinion based
upon hearsay. As long as they don’t
testify to that hearsay, they can give
their opinion based upon hearsay, what
they’ve seen from other experts or what
they’ve seen from – every day it happens
with physicians. I’ve reviewed these
records and, in my opinion, this person’s
back was not caused by this car accident
or this person’s death was caused from
this car accident. It happens probably
every week in this courthouse and
courthouses all over the state in personal
injury cases. And the Evidence Code is
the Evidence Code, whether it’s a
criminal case or a personal injury case,
that allows for expert opinion testimony
to be based upon review of medical
records.
MR. STONE: I understand, but I
think that this goes – this goes into what
I’m referring to here. Which is in
Bullcoming, essentially that – they had
that situation where they brought in a
substitute lab analyst, because the lab

26
analyst who had conducted the analysis
was not available, so they brought in a
substitute lab analyst to testify about the
blood alcohol content that was contained
in the lab report. And he looked at all the
reports of the other lab analysts –
THE COURT: I’m familiar with
that case and I’m familiar with the host
of cases after that deal with urine drug
tests in the context of violations of
probation that talk about when the
witness can testify to that hearsay and
when they cannot.
But are you familiar or are you
aware of any cases anywhere in the
United States where an appellate court
has said that a medical doctor cannot
take the witness stand and opine as to
cause of death, even though they’re not
the ones who did an autopsy or maybe
even an autopsy wasn’t done?
MR. STONE:
Well, and I’m
referring to Rosario v. State, which is at
175 So. 3d 843, which is a 2015 Fifth
DCA case that dealt with cause of death
and with the – with the – ultimately all of
these issues. The testimonial hearsay,
the failure to call the medical examiner
conducting the autopsy.
THE COURT: What did that case
say?

27
MR. STONE: Well, that’s what I
was reading.
THE COURT:
When you’re
talking about a DUI breath test or blood
test, that’s testimonial hearsay.
MR. STONE: If I could have one
moment, Your Honor.
THE COURT: Because there are
cases out there, that I’m aware of, where
the medical examiner who conducted the
autopsy, was no longer available. Either
they died or the situation – even up in
Jacksonville, where you-all are located –
where the medical examiner was no
longer capable of performing her job, and
other medical examiners came in to
testify to the cause of death in murder
cases, based upon their review of the
records.
MR. STONE: What I would say is
that the Rosario case stands for the fact
that it states that an autopsy report
admitted at the defendant’s trial for
aggravated child abuse and first-degree
murder, was testimonial hearsay under
the Confrontation Clause, such that
failure to give the defendant the
opportunity to cross-examine the medical
examiner who prepared the report,
violated the defendant’s Sixth

28
Amendment right to confront witnesses.
Even though the report was not sworn or
certified, the report included out-of-court
statements made by the examiner and
was offered by the State to prove the
truth of the matter asserted.
THE COURT:
Well, that’s
markedly different from what we have
here. We don’t have the State tendering
an autopsy report, saying here’s the
report. We have an expert coming in and
giving her opinion as to the cause of
death. An expert who happened to be a
treating physician to some degree.
MR. STONE: And I would certainly
disagree that she was qualified as an
expert to declare cause of death.
As indicated –
THE COURT: You didn’t object to
the opinion during the course of her
testimony. I didn’t hear anybody object to
her rendering the opinion.
MR. STONE: I objected to the
foundation of her – of her testimony. Of
her – of her being called for that purpose.
She wasn’t a treating physician. She –
she had no hands-on experience with this
– with this case, other than to review
medical records and ultimately declare
the – the death at a certain place in time.

29
But that did not – that does not, then,
extend to her credentialing or ability to
declare a cause of death. So I would ask
that the Court grant a Judgment of
Acquittal as to the element of causing
death in the DUI manslaughter count.
Thank you.
THE COURT: Okay. Thank you.
I appreciate your arguments, and I
understand where you-all are coming
from. However, there’s been clearly a
prima facie case of impairment.
So I will deny the Motion for
Judgment of Acquittal that Mr. Lockett
had argued.
And then I do find that Dr. Patel is
qualified to render the opinion that she
did with regards to cause of death, so I’ll
deny the Motion for Judgment of
Acquittal.
(A-35-49). For all of the reasons expressed by defense
counsel, the trial court erred by denying the motion for
a judgment of acquittal.
In Rosario v. State, 175 So. 3d 843, 858 (Fla. 5th
DCA 2015), the state appellate court – citing this
Court’s opinions in Crawford v. Washington, 541 U.S.

30
36 (2004), Melendez-Diaz v. Massachusetts, 557 U.S.
305 (2009), and Bullcoming v. New Mexico, 564 U.S.
647 (2011) – held that an autopsy report prepared is
testimonial hearsay under the Confrontation Clause of
the Sixth Amendment to the Constitution:
In sum, we conclude that an
autopsy report prepared pursuant to
chapter 406[, Florida Statutes], is
testimonial hearsay under the
Confrontation Clause. With respect to
the broad statement in Banmah [v. State,
87 So. 3d 101 (Fla. 3d DCA 2012),] that
“autopsy reports are non-testimonial
because they are prepared pursuant to a
statutory duty, and not solely for use in
prosecution,” we respectfully disagree. 87
So. 3d at 103. Regardless of whether the
report is actually used at trial, it is
reasonably foreseeable to believe that it
may be used prosecutorially, especially
when the medical examiner concludes
that the cause of death was a homicide,
as in this case. See Crawford, 541 U.S. at
51 (stating that testimonial statements
include “material such as affidavits . . . or
similar pretrial statements that
declarants would reasonably expect to be
used prosecutorially” (emphasis added)).
The Confrontation Clause has never

31
mandated that a statement’s sole use
must be for prosecution in order for it to
be testimonial. Moreover, the fact that
an autopsy report is not “accusatory” or
“inherently inculpatory” in some
circumstances does not make it
nontestimonial in all circumstances. See
Bullcoming, 564 U.S. at 664 (rejecting
respondent’s argument that the
affirmations made by the analyst were
not testimonial because they were not
“adversarial” or “inquisitorial”);
Melendez-Diaz, 557 U.S. at 313-315
(rejecting respondent’s argument that the
analysts were not subject to confrontation
because they were not “accusatory” or
conventional witnesses). When a report
prepared pursuant to chapter 406 is
introduced “against” the defendant at
trial, as in this case, he must be given an
opportunity to cross-examine the medical
examiner who prepared the report.
Because Appellant was not afforded an
opportunity to cross-examine Dr. Gore,
we find that his Sixth Amendment right
to confront witnesses was violated.
(Some citations omitted). Consistent with Rosario, Dr.
Patel’s testimony was insufficient to establish Ms.
Morand’s cause of death. As argued by defense counsel
during the trial, Dr. Patel did not treat Ms. Morand –

32
she simply reviewed Ms. Morand’s medical record and
gave an opinion based on her review of the medical
record. Because a proper foundation was not laid by
the State for Dr. Patel to give such an opinion, Dr.
Patel’s testimony does not satisfy the State’s burden of
establishing that Ms. Morand died as a result of the
accident in this case. Thus, the trial court erred by
denying the Petitioner’s motion for a judgment of
acquittal.
Alternatively, the trial court erred by allowing
Dr. Patel to give an opinion regarding Ms. Morand’s
cause of death. Because Dr. Patel was not a medical
examiner and she relied on testimonial hearsay in
testifying as to the cause of Ms. Morand’s death, her
testimony was not constitutionally satisfactory under
the Confrontation Clause. See Crawford, MelendezDiaz & Bullcoming.

33
By granting the petition for writ of certiorari in
the instant case, the Court will have the opportunity to
consider these important questions. Accordingly, the
Petitioner requests the Court to grant her petition for
a writ of certiorari.

I. CONCLUSION
The Petitioner requests the Court to grant her
petition for writ of certiorari.
Respectfully Submitted,
MICHAEL UFFERMAN
Michael Ufferman Law Firm, P.A.
2022-1 Raymond Diehl Road
Tallahassee, Florida 32308
(850) 386-2345/fax (850) 224-2340
FL Bar No. 114227
Email: ufferman@uffermanlaw.com
COUNSEL FOR THE PETITIONER

